No. A-

IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë
CITY OF BOISE,
Applicant/Petitioner,
v.
ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT ANDERSON,
JANET F. BELL, PAMELA S. HAWKES, AND BASIL E. HUMPHREY,
Respondents.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, DC 20036
(202) 955-8500
tolson@gibsondunn.com

THEANE D. EVANGELIS
Counsel of Record
JOSEPH TARTAKOVSKY
SAMUEL ECKMAN
WILLIAM F. COLE
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7000
tevangelis@gibsondunn.com

Counsel for Applicant/Petitioner

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and this Court’s Rule 13.5, the City of Boise
respectfully requests a 60-day extension of time, to and including August 29, 2019,
within which to file a petition for a writ of certiorari to the United States Court of
Appeals for the Ninth Circuit.
The court of appeals entered its judgment on September 4, 2018. Martin v. City
of Boise, 902 F.3d 1031 (9th Cir. 2018). The Ninth Circuit issued an amended opinion
and denied the City’s timely petition for rehearing on April 1, 2019. Martin v. City of
Boise, 920 F.3d 584 (9th Cir. 2019). Copies of the opinion and amended opinion are
attached hereto. Unless extended, the time in which to file a petition for a writ of
certiorari will expire on July 1, 2019. This Court’s jurisdiction would be invoked
under 28 U.S.C. § 1254(1).
1. Like many cities and towns across the country, the City of Boise, Idaho has
enacted ordinances that prohibit (1) using “any of the streets, sidewalks, parks, or
public places as a camping place at any time,” and (2) “[o]ccupying, lodging, or sleeping
in any building, structure, or public place, whether public or private . . . without the
permission of the owner or person entitled to possession or in control thereof.” Martin,
902 F.3d at 603–04. In recognition that some of the City’s homeless population may be
unable to obtain suitable shelter, however, the ordinances also provide that “[l]aw
enforcement officers shall not enforce [the ordinances] when the individual is on public
property and there is no available overnight shelter.” Id. at 608.

Plaintiffs are six individuals experiencing homelessness who sued the City
alleging that the ordinances violate the Cruel and Unusual Punishments Clause of the
Eighth Amendment. Id. at 606. The district court granted summary judgment in favor
of the City, id. at 607, but the Ninth Circuit reversed. The Ninth Circuit explained that
Plaintiffs’ Eighth Amendment claim was governed by Powell v. Texas, 392 U.S. 514
(1968), which considered whether a statute that proscribed public drunkenness violated
the Eighth Amendment. Martin, 920 F.3d at 616. Justice Marshall, writing for a fourJustice plurality, held that it did not because the statute “made criminal not alcoholism
but conduct”—even if that conduct may in some sense be “‘involuntary’” for chronic
alcoholics. Id.
Nevertheless, the Ninth Circuit held that Powell compelled a finding for
Plaintiffs. In doing so, it looked to Justice White’s concurrence, which speculated that,
with respect to at least some people, “‘I would think a showing could be made that
resisting drunkenness is impossible and that avoiding public places when intoxicated
is also impossible,’” in which case “‘th[e] statute is in effect a law which bans a single
act for which they may not be convicted under the Eighth Amendment.’” Id. Because
“[t]he four dissenting Justices adopted a position consistent with that taken by Justice
White,” the Ninth Circuit concluded that “five Justices gleaned . . . the principle that
‘the Eighth Amendment prohibits the state from punishing an involuntary act or
condition if it is the unavoidable consequence of one’s status or being.’” Id. at 617.
Deeming this principle to constitute the holding of Powell, the Ninth Circuit
“h[e]ld . . . that ‘so long as there is a greater number of homeless individuals in [a

2

jurisdiction] than the number of available beds [in shelters],’ the jurisdiction cannot
prosecute homeless individuals for ‘involuntarily sitting, lying, and sleeping in public.’”
Id. In other words, cities and towns within the Ninth Circuit are now powerless to
prohibit any individual experiencing homelessness—even one for whom a shelter bed is
available—from camping in public so long as the total number of such individuals
exceeds the total number of beds available in the jurisdiction. See id. at 590 (M. Smith,
J., dissenting from denial of rehearing en banc) (“Under the panel’s decision, local
governments are forbidden from enforcing laws restricting public sleeping and camping
unless they provide shelter for every homeless individual within their jurisdictions.”).
The Ninth Circuit denied rehearing en banc over two separate dissents. The
principal dissent, authored by Judge Milan Smith and joined by five other judges,
explained that the panel’s attempt to “metamorphosize[] the Powell dissent into the
majority opinion[] defies logic” as well as this Court’s precedent. Id. at 591 (citing Marks
v. United States, 430 U.S. 188 (1977)). It then explained that the “panel’s opinion also
conflicts with the reasoning underlying the decisions of other appellate courts” that
have rejected Eighth Amendment challenges to ordinances banning similar conduct.
Id. at 593 (citing Manning v. City of Caldwell, 900 F.3d 139 (4th Cir. 2018), reh’g en
banc granted, 741 F. App’x 937 (4th Cir. 2018); Joel v. City of Orlando, 232 F.3d 1353
(11th Cir. 2000); Tobe v. City of Santa Ana, 9 Cal. 4th 1069 (1995)).
Finally, Judge Smith’s dissent emphasized the disastrous consequences of the
Court’s decision, which “leaves cities with a Hobson’s choice:

They must either

undertake an overwhelming financial responsibility to provide housing for or count the

3

number of homeless individuals within their jurisdiction every night, or abandon
enforcement of a host of laws regulating public health and safety.” Id. at 594. And the
effects of the panel’s sweeping decision are not limited to bans on public camping.
Rather, by categorically “holding that the Eighth Amendment proscribes the
criminalization of involuntary conduct, the panel’s decision will inevitably result in the
striking down of laws that prohibit public defecation and urination.” Id. at 596.
A separate dissent from the denial of rehearing en banc, authored by Judge Mark
Bennett and joined by four other judges, argued that “except in extraordinary
circumstances not present in this case, and based on its text, tradition, and original
public meaning, the Cruel and Unusual Punishments Clause of the Eighth Amendment
does not impose substantive limits on what conduct a state may criminalize.” Id. at 599
(Bennett, J., dissenting from denial of rehearing en banc).
2. The City intends to seek this Court’s review of the Ninth Circuit’s decision,
which, in addition to misconstruing this Court’s decision in Powell, conflicts with
decisions of other appellate courts and raises questions of national importance.
As noted in the principal dissent from denial of rehearing en banc, the Ninth
Circuit’s decision conflicts with decisions of at least two other federal courts of appeals
and the California Supreme Court. In Joel, the Eleventh Circuit upheld an ordinance
“regulat[ing] where ‘camping’ occurs” because it “targets conduct, and does not provide
criminal punishment based on a person’s status.” 232 F.3d at 1362. The Fourth Circuit
reached a similar conclusion, upholding a state law allowing a court to “issue a civil
interdiction order to any person who ‘has been convicted of driving any automobile,

4

truck, motorcycle, engine or train while intoxicated or has shown himself to be a
habitual drunkard,’” Manning, 900 F.3d at 143, because the law “does not . . . punish
the illness[, but] instead targets what takes place when the illness manifests itself in
conduct harming or potentially harming other persons,” id. at 153. Although the Fourth
Circuit agreed to rehear Manning en banc, that simply confirms the importance of this
issue and the conflicting decisions it has engendered. Finally, the California Supreme
Court in Tobe considered an Eighth Amendment challenge to a municipal ordinance
that “banned ‘camping’ and storage of personal property, including camping equipment,
in designated public areas.” 9 Cal. 4th at 1080. “The Court of Appeal invalidated the
ordinance [because] it imposed punishment for the ‘involuntary status of being
homeless,’” but the California Supreme Court reversed, explaining that “[t]he ordinance
permits punishment for proscribed conduct, not punishment for status.” Id. at 1104.
The Ninth Circuit’s decision also has important, far-reaching implications.
Ordinances like those adopted by the City are critical to ensure local governments can
encourage individuals experiencing homelessness to enter shelters, where they will
have access to medical care, drug treatment facilities, and other social services, rather
than becoming trapped in dangerously unhealthy encampments. But since the decision
in this case issued, municipalities have ceased enforcing their ordinances directing
homeless residents into shelters. See Martin, 920 F.3d at 595 n.12 (M. Smith, J.,
dissenting from denial of rehearing en banc). With homelessness reaching record levels,
it is all the more important that cities have access to the tools they need to address this
urgent crisis and the public health challenges it presents. See Anna Gorman & Harriet

5

Blair Rowan, The Homeless Are Dying in Record Numbers on the Streets of Los Angeles
(U.S.

News

Apr.

23,

2019),

https://www.usnews.com/news/healthiest-

communities/articles/2019-04-23/homeless-dying-in-record-numbers-on-the-streets-oflos-angeles; Anna Gorman & Kaiser Health News, Medieval Diseases Are Infecting
California’s Homeless (The Atlantic Mar. 8, 2019).
3. Additional time is necessary to permit counsel to prepare and file a petition
that adequately addresses these important issues. An extension of 60 days is warranted
because counsel of record was not involved in the prior proceedings in this case and
therefore requires additional time to study the record and relevant case law.

In

addition, counsel of record has numerous preexisting professional responsibilities in the
next several weeks, including several out-of-town business meetings; a motion to compel
arbitration due on June 7, 2019 in Webb v. DoorDash, Inc., No. 19-cv-0665 (N.D. Ga.); a
Respondent’s Brief due on June 7, 2019 in Monster, LLC v. Beats Electronics, LLC, No.
B285994 (Cal. Ct. App.); a mediation on June 13, 2019; a motion to dismiss due on June
13, 2019 in Roane County v. Jacobs Engineering, No. 2019-cv-78 (Cir. Ct. for Roane
County, Tenn.); a motion to dismiss due on June 17, 2019 in Anderson v. Jacobs
Engineering, No. 2019-cv-81 (Cir. Ct. for Roane County, Tenn.); a motion to dismiss due
on June 18, 2019 in Johnson v. Sony Music Entertainment Inc., No. 19-cv-01094
(S.D.N.Y.); a Respondent’s Brief due on June 20, 2019 in Halyard Health, Inc. v.
Kimberly-Clark Corp., No. B294567 (Cal. Ct. App.); a motion due on June 25, 2019 in
Vincent v. Postmates Inc., No. RG19019205 (Alameda Cnty. Super. Ct.); and an Opening
Brief due on July 5, 2019 in Brown v. DoorDash, Inc., No. B295813 (Cal. Ct. App.). The

6

City is not aware of any party that would be prejudiced by granting a 60-day extension.

I

CONCLUSION
Accordingly, the City of Boiser lspectfully requests that the time to file a petition
for a writ of certiorari be extended by : 0 days, to and including August 29, 2019.

Respectfully submitted,

7~Dc~

THEANE D . EVANGELIS

Counsel of Record

JOSEPH T ARTAKOVSKY
SAMUEL ECKMAN
WILLIAM F. COLE
GIBSON, DUNN & CRUTCHER LLP

333 South Grand Avenue
Los Angeles, CA 90071
(213) 229-7000
tevangelis@gibsondunn.com

THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP

1050 Connecticut Avenue, N.W.
Washington, DC 20036
(202) 955-8500
tolson@gibsondunn.com

Counsel for Applicant I Petitioner

Dated: June 3, 2019

7

/Kc.

